NO.

IN THE
SUPREME COURT OF THE UNITED STATES

MISTY ROSE WEED - PETITIONER
v.
STATE OF FLORIDA - RESPONDENT

PROOF OF SERVICE
------ I, Misty Rose Weed, do swear or declare that on this date,
V u>Hw\bPr
Cfgk-______ , 2020, as required by
Supreme Court Rule 29 I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party's
counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the
United States mail properly addresses to each of them and with
first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
The Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
--and to--

29

Attorney General's Office
The Capitol PL-01
Tallahassee, FL 32399-1050

\

MISTY RCTSE/IwEE57c>DC#G1406
Hontestead Correctional Institution
190joo S.W. 377th Street
Fldrida City, Florida 33034

30

NO.

IN THE
SUPREME COURT OF THE UNITED STATES

MISTY ROSE WEED - PETITIONER
v.
STATE OF FLORIDA - RESPONDENT

PROOF OF SERVICE
__I, Misty Rose Weed, do swear or declare that on this date,
A\ i£l\P U
jj£r .J, 2 0 2 j| j
as
required
by
Supreme Court Ru
29 I have roetje?<v€(dJthe enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and AMENDED PETITION FOR A
WRIT OF CERTIORARI on each party to the above proceeding or that
party's counsel, and on every other person required to be
served, by depositing an envelope containing the above documents
in the United States mail properly addresses to each of them and
with first-class postage prepaid, or by delivery to a thirdparty commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
The Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
--and to--

29

Attorney General's Office
The Capitol PL-01
Tallahassee, FL 32399-1050

i
MISTY ROS
!ED, DC#G14060
Homestead/jborrectional Institution
19000 S.W1/ 377th Street
Florida City, Florida 33034

30

